App. 1
IN THE SUPREME COURT, STATE OF WYOMING
2021 WY 63
APRIL TERM, A.D. 2021
May 6, 2021
WILLIAM THOMAS
MAHAFFY V,
Appellant
(Defendant),
v.

S-20-0191

THE STATE OF
WYOMING,
Appellee
(Plaintiff ).
Appeal from the District Court
of Campbell County
The Honorable John R. Perry, Judge
(Filed May 6, 2021)
Representing Appellant:
Office of the Public Defender: Diane M Lozano,
State Public Defender; Kirk A. Morgan, Chief Appellate Counsel. Argument by Mr. Morgan.
Representing Appellee:
Bridget L. Hill, Attorney General; Jenny L. Craig,
Deputy Attorney General; Joshua C. Eames, Senior
Assistant Attorney General; Timothy P. Zintak, Assistant Attorney General. Argument by Mr. Zintak.
Before DAVIS, C.J., and FOX, KAUTZ, BOOMGAARDEN, and GRAY, JJ.

App. 2
FOX, J., delivers the opinion of the Court; BOOMGAARDEN, J., files a dissenting opinion, in which
KAUTZ, J., joins.
FOX, Justice.
[¶1] William Mahaffy entered a conditional plea to
methamphetamine possession and child endangerment after the district court denied his motion to suppress evidence obtained at the end of a traffic stop. He
now appeals, arguing the traffic stop was unlawfully
extended before a drug dog alerted. The State contends
Mr. Mahaffy has changed horses and therefore waived
the “new” argument he makes on appeal. In the alternative, the State argues the stop was not unlawfully
extended. We decline the State’s invitation to parse the
issue on appeal, we conclude the stop was unlawfully
extended after its initial purpose had been resolved,
and we reverse and remand.
ISSUES
1. Did Mr. Mahaffy waive his right to appeal
the district court’s denial of his motion to suppress when he raised the issue of the unlawful
extension of the stop while emphasizing one
portion of the discussion and merely mentioning the portion he relies upon on appeal?
2. Was the stop unlawfully extended in violation of the Fourth Amendment when the initial reason for the stop had been resolved by
the time the drug dog alerted?

App. 3
FACTS
[¶2] Mr. Mahaffy was the passenger in a car driven
by his wife when he threw a lit cigarette out the car
window in front of Campbell County Sheriff ’s Deputy
Joshua Knittel’s patrol car. Deputy Knittel activated
his body camera, turned on his overhead lights, and
pulled the car over. Deputy Knittel approached the
driver’s side of the car, explained the reason for the
stop, and obtained the car registration, proof of insurance, and Mr. and Mrs. Mahaffy’s driver’s licenses.
Because the driver appeared very nervous, Deputy
Knittel called for a drug dog on his way back to his car.
He then proceeded to write the citation for the burning
cigarette. While he was completing the citation, another deputy and a K-9 handler arrived.
[¶3] About twelve minutes into the stop, the other
deputy asked Mr. Mahaffy to get out of the car and accompanied him to the front of Deputy Knittel’s patrol
car. Eleven seconds later, Deputy Knittel completed
the citation and asked Mr. Mahaffy, “Is there a reason
you guys are so nervous while I’m talking to you?” That
discussion lasted approximately thirty seconds. Deputy Knittel then proceeded to explain the citation. At
thirteen minutes, fourteen seconds, the body camera
shows the dog handler walk behind Mr. Mahaffy and
nod. Deputy Knittel testified:
Q: [D]id you receive the information of the
indication while you were still explaining the
citation to Mr. Mahaffy?

App. 4
A: Yes. I believe, if I recall correctly, I’d
looked at the PD officer, because he had
stopped walking around the vehicle, and I believe he nodded in my direction, informing me
there was an indication.
[¶4] Twenty-three seconds later, Deputy Knittel completed his explanation and began to inquire about
drugs in the car. The entire extension of the stop, from
the time Deputy Knittel finished writing the citation
to the time he began questioning about drugs, took approximately one and a half minutes.
[¶5] The officers searched the car and found methamphetamine and a pipe. The State charged Mr. Mahaffy
with two counts child endangerment (the Mahaffys’
two children were in the back of the car) and one count
methamphetamine possession. He moved to suppress
“all evidence collected by law enforcement as [a] result of [the] traffic stop.” The district court denied the
motion after a hearing, and Mr. Mahaffy entered a
conditional guilty plea, reserving the right to seek review of the order on his motion to suppress.
[¶6] Mr. Mahaffy timely appealed, arguing the duration of the stop was improperly extended in violation
of the Fourth Amendment. The State contends Mr. Mahaffy raises a new argument on appeal that is waived
because it was not raised below and, in the alternative,
that Deputy Knittel’s questioning did not unreasonably prolong the stop.

App. 5
DISCUSSION
[¶7] We first address the State’s contention that Mr.
Mahaffy waived the argument he now makes on appeal, and then turn to the constitutionality of the stop’s
duration.
I.

Mr. Mahaffy Did Not Waive His Right to Appeal the District Court’s Denial of His Motion to Suppress When He Raised the Issue
of the Unlawful Extension of the Stop While
Emphasizing One Portion of the Discussion
and Merely Mentioning the Portion He Relies Upon on Appeal

A.

Standard of Review

[¶8] The record here is clear and the facts giving rise
to waiver are undisputed, so we apply a de novo standard of review. Mills v. State, 2020 WY 14, ¶ 13, 458 P.3d
1, 7 (Wyo. 2020).
B.

Waiver

[¶9] The State contends Mr. Mahaffy waived his argument on appeal because in his motion to suppress,
and at the argument on the motion, he asserted that
the duration of the stop was improperly extended because of the time Deputy Knittel spent explaining the
citation; while on appeal, he argues that the questions
regarding nervousness caused the offending extension
of the stop. It urges this Court to dissect the arguments
below for the precise words that it contends are necessary to preserve argument on each segment of the
stop’s extension.

App. 6
[¶10] A guilty plea “waives appellate review of all
non jurisdictional claims,” except for those preserved
under W.R.Cr.P. 11(a)(2), “which ‘allows a defendant to
plead guilty while reserving the right to seek review
on appeal of any specified pretrial motion.’ ” Ward v.
State, 2015 WY 10, ¶ 15, 341 P.3d 408, 411 (Wyo. 2015)
(citations omitted). “[A]n appellant’s argument is limited to those issues clearly brought to the district
court’s attention.” Brown v. State, 2019 WY 42, ¶ 12,
439 P.3d 726, 730-31 (Wyo. 2019) (citation omitted). In
addition to our specific rules governing conditional
pleas, we adhere to the general rule limiting appellate
issues to those raised below because “[i]t is unfair to
reverse a ruling of a trial court for reasons that were
not presented to it, whether it be legal theories or issues never formally raised in the pleadings nor argued
to the trial court.” Smith v. State, 2021 WY 28, ¶ 49,
480 P.3d 532, 543 (Wyo. 2021) (quoting Four B Props.,
LLC v. Nature Conservancy, 2020 WY 24, ¶ 69, 458
P.3d 832, 849 (Wyo. 2020)). It is even less fair to deprive
an appellant of a legitimate constitutional argument
by applying an overly technical waiver analysis. That
is why we give the appellant the benefit of the doubt,
and “read any ambiguity in the conditional plea agreement ‘against the Government and in favor of a defendant’s appellate rights.’ ” Brown, 2019 WY 42, 1113,
439 P.3d at 731 (quoting U.S. v. Anderson, 374 F.3d 955,
957 (10th Cir. 2004)).
[¶11] Mr. Mahaffy’s motion to suppress is only three
pages, but it serves its purpose—to advise the State
and the district court of the factual basis and the law

App. 7
upon which he relies. The motion contains the general
statement “that law enforcement may not prolong a
traffic stop with a drug sniffing dog beyond the purposes of the traffic stop absent reasonable suspicion,”
citing Mills, 2020 WY 14, 458 P.3d 1, and Rodriguez v.
U.S., 575 U.S. 348, 135 S.Ct. 1609, 191 L.Ed.2d 492
(2015);1 and it states, “The subsequent drug investigation . . . wasn’t lawful once the citation was completed.”
At the hearing on the motion to suppress, Mr. Mahaffy’s counsel further expanded the scope of the issue:
The issue here today would be the mission of the traffic stop in this case, and I would
submit to the Court that, per the testimony of
Deputy Knitt[el], the traffic stop’s mission
was to rectify and determine why this lit substance, cigarette was thrown out the window
and to properly address that issue, and he had
explained to you that there was some general
nervousness exhibited by the driver of the vehicle[.]
Counsel concluded:
And I would submit to the Court that there is
no suspicion related to the search in this particular case as to my client and, therefore, it
was . . . an unlawful extension of the traffic stop by using a drug dog sniff to extend
1

Rodriguez is the seminal case that establishes “A seizure
justified only by a police-observed traffic violation, therefore,
tecome[s] unlawful if it is prolonged beyond the time reasonably
required to complete th[e] mission’ of issuing a ticket for the violation.” 575 U.S. at 350-51, 135 S.Ct. at 1612 (alterations in original) (citation omitted).

App. 8
it in order to accomplish a further investigation that, under the terms of these
two cases, is unlawful on the part of the
Campbell County Sheriff ’s Office.
(Emphasis added.)
[¶12] In its decision letter denying the motion to suppress, the district court recognized “During his initial
contact with the vehicle occupants, Deputy Knittel observed that the driver, Raina Mahaffy, appeared very
nervous with shaking hands.” The court began its discussion by framing the issue: “In Defendant’s Motion to
Suppress Evidence, he argues the purpose of the traffic
stop was concluded once Deputy Knittel had finished
preparing the citation for throwing a burning substance from a vehicle.” It went on to discuss the time
required to explain the citation, in light of our decision
in Mills, 2020 WY 14, 458 P.3d 1, and the time spent
on the explanation is certainly the primary aspect of
the court’s discussion as well as Mr. Mahaffy’s. But the
decision letter goes on to recognizeHe [Deputy Knittel] also asked Defendant
why Defendant and his wife were so nervous.
Mr. Mahaffy stated he and his wife had had
an argument about driving shortly before the
traffic stop. This conversation between Deputy Knittel and Mr. Mahaffy took approximately one and a half minutes, and the canine
free-air sniff required only a fraction of that
time.
The district court was referring to the conversation
after Deputy Knittel finished preparing the citation,

App. 9
including both the nervousness questions and the citation explanation. The one-and-a-half-minute extension
of the stop after Deputy Knittel had finished writing
the citation is the issue that was clearly brought to the
court’s attention, and the issue the court addressed in
its decision letter.
[¶13] This is not a case like Workman v. State, 2019
WY 128, 454 P.3d 162 (Wyo. 2019). There, we held that
a conditional plea, which preserved a motion to suppress that challenged a warrantless search, did not
preserve an entirely new issue that the appellant attempted to raise on appeal, the alleged misrepresentations in the affidavit for the search warrant. Id. at
¶¶ 13, 19, 454 P.3d at 166-67. In Kunselman v. State,
2008 WY 85, ¶ 12, 188 P.3d 567, 570 (Wyo. 2008), we
held that the appellant could not argue on appeal that
the stop was not justified at its inception because she
had only “focused on the scope and duration of the stop
and the subsequent search of her purse” in her motion
to suppress and the suppression hearing. In Lindsay v.
State, 2005 WY 34, ¶ 19 n.7, 108 P.3d 852, 857 n.7 (Wyo.
2005), we declined to consider appellant’s challenge to
the reasonableness of the initial stop when appellant
only challenged the reasonableness of the further detention before the district court. See also Robinson v.
State, 2019 WY 125, ¶¶ 18, 19, 454 P.3d 149, 156 (Wyo.
2019) (appellant raised the absence of reasonable suspicion and the extension of the duration of the stop in
his motion to suppress; Court declined to consider his
argument on appeal challenging the initial pursuit);
3 Wayne R. LaFave et al., Criminal Procedure § 10.1(b),

App. 10
at n.20, Form of the motion (4th ed.), Westlaw (database updated Dec. 2020). We have generally rejected
arguments on appeal that present issues or theories
not raised below, but we reject attempts to dissect the
issue in an analytical exercise that does not advance
fairness to the district court or to the appellant.
[¶14] In Brown, the appellant had filed a motion to
suppress that alleged the scope of the stop was improperly extended without reasonable suspicion. Brown,
2019 WY 42, ¶ 14, 439 P.3d at 731. On appeal, Mr.
Brown argued the scope of the stop was unreasonably
extended both at approximately the seven-minute
mark, when the deputy returned his identification, and
at approximately the nine-minute mark, when Mr.
Brown revoked his consent and asked to leave. Id. at
¶ 15, 439 P.3d at 731. We acknowledged that the focus
of the argument at the suppression hearing was on the
extension beyond nine minutes, but we rejected the
State’s contention that the argument arising at seven
minutes was waived. We said the district court did not
specifically determine when the traffic stop was completed, and we concluded, “Mr. Brown’s general allegation that [the officer] unlawfully expanded the scope of
the stop without reasonable articulable suspicion has
not changed.” Id. The same rationale applies to Mr.
Mahaffy’s case. The issue he raised below was the extension of the stop after Deputy Knittel had completed
the citation. His counsel may have emphasized the argument on the explanation of the citation, but the
nervousness questions were raised at the suppression
hearing, they were addressed by the court, and, just as

App. 11
in Brown, they fall under the general allegation that
the scope of the stop was unlawfully extended. Further,
as in Brown, “this is not a case in which the record is
undeveloped, thus precluding our review.” Id. at ¶ 17,
439 P.3d at 731 (citations omitted). The evidence at the
hearing, including Deputy Knittel’s body camera video,
encompassed the entire stop.
[¶15] In Rodriguez v. State, 2019 WY 25, ¶ 37, 435
P.3d 399, 410 (Wyo. 2019), we embraced the rule that
“failure to file a W.R.Cr.P. 12(b)(3)-required motion
bars appellate review of . . . suppression questions,” absent a showing of good cause. In Rodriguez, however,
the defendant did not file a motion to suppress. Id. at
¶ 23, 435 P.3d at 405. Now, the State would have us
take waiver into a new realm by barring, not just appellate argument on an issue never raised, but also argument on specific facts within an issue. We decline to
do so because the job of the judiciary is to apply the
rule of law to dispense justice, not to seek ways to bar
the door to the courts. Wyo. Const. art. 1, § 8.
II.

The Stop was Unlawfully Extended in Violation of the Fourth Amendment When the
Initial Reason for the Stop Had Been Resolved by the Time the Drug Dog Alerted

A.

Standard of Review

[¶16] We adopt a district court’s factual findings on a
motion to suppress unless they are clearly erroneous.
Kern v. State, 2020 WY 60, ¶ 6, 463 P.3d 158, 160 (Wyo.
2020). “The ultimate question of whether the search or
seizure was legally justified, however, is a question of

App. 12
law we review de novo.” Id. (quoting Brown, 2019 WY
42, ¶ 10, 439 P.3d at 730).
B.

Extension of the Stop

[¶17] The Fourth Amendment to the United States
Constitution prohibits “unreasonable searches and
seizures.” U.S. Const. amend. IV. Because “[a] traffic
stop for a suspected violation of law is a ‘seizure’ of
the occupants of the vehicle[,]” a law enforcement officer must conduct it “in accordance with the Fourth
Amendment.” Pier v. State, 2019 WY 3, ¶ 16, 432 P.3d
890, 896 (Wyo. 2019) (citations omitted).
[¶18] We apply the two-part inquiry from Terry v.
Ohio, 392 U.S. 1, 19-20, 88 S.Ct. 1868, 1879, 20 L.Ed.2d
889 (1968) to determine whether a traffic stop and resulting seizure was reasonable: “(1) whether the initial
stop was justified; and (2) whether the officer’s actions
during the detention were reasonably related in scope
to the circumstances that justified the interference in
the first instance.” Pier, 2019 WY 3, ¶ 17, 432 P.3d at
896 (citations omitted). Mr. Mahaffy does not dispute
the initial traffic stop was justified; he focuses on the
second part of the Terry test.
[¶19] “The second part of the Terry inquiry is the reasonableness of the detention.” Pier, 2019 WY 3, ¶ 19,
432 P.3d at 897 (citation omitted). The “investigative
detention must be temporary, lasting no longer than
necessary to effectuate the purpose of the stop, and the
scope of the detention must be carefully tailored to its
underlying justification.” Brown, 2019 WY 42, ¶ 20,
439 P.3d at 732 (citation omitted). “During a routine

App. 13
traffic stop, an officer may request a driver’s license,
proof of insurance, and vehicle registration, run a
computer check, and issue a citation or warning.” Id.
(citation omitted). The driver and vehicle may only be
detained for the “time reasonably necessary to complete these routine matters.” Id. (citations omitted).
When “the initial reason for [the] stop has been resolved,” the officer needs “specific, articulable facts and
rational inferences giving rise to reasonable suspicion
that another crime has been or is being committed to
justify a continued detention.” Id. (citations omitted).
Mr. Mahaffy concedes the Fourth Amendment does not
prohibit use of a drug dog so long as it does not extend
the duration of the stop, citing Wallace v. State, 2009
WY 152, ¶ 15, 221 P.3d 967, 971 (Wyo. 2009), and Illinois v. Caballes, 543 U.S. 405, 409, 125 S.Ct. 834, 838,
160 L.Ed.2d 842 (2005). The State does not contend
Deputy Knittel had reasonable suspicion prior to
learning the dog had alerted. Thus, the question for
our resolution is whether the one-and-a-half minute
discussion, after he completed the citation, was an unconstitutional extension of the stop.
[¶20] On appeal, Mr. Mahaffy discusses only the constitutionality of Deputy Knittel’s questions regarding
nervousness, omitting any mention of Mills and the
explanation of the citation. We therefore confine our
discussion to that portion of the extension as well. Mr.
Mahaffy relies on Campbell v. State, 2004 WY 106, 97
P.3d 781 (Wyo. 2004), in which we held that a trooper’s
question about drugs during a routine traffic stop “was
unrelated to the purpose of the initial stop—a possible

App. 14
expired registration—and, therefore, was proper only
if the trooper had a reasonable articulable suspicion
that Campbell was engaged in illegal activity.” Id. at
¶ 13, 97 P.3d at 785. Because the trooper had neither
reasonable articulable suspicion nor consent, we reversed the district court’s denial of Mr. Campbell’s motion to suppress. Id. at ¶ 23, 97 P.3d at 787. In
response, the State argues Campbell has been superseded by the United States Supreme Court’s decisions
in Arizona v. Johnson, 555 U.S. 323, 129 S.Ct. 781, 172
L.Ed.2d 694 (2009), and Muehler v. Mena, 544 U.S. 93,
125 S.Ct. 1465, 161 L.Ed.2d 299 (2005), which, the
State contends, have clarified that “suppression is only
warranted where unrelated inquiries measurably extended the stop’s duration.” The State correctly summarizes the holdings in those cases, see Arizona, 555
U.S. at 333, 129 S.Ct. at 788 (citing Muehler, 544 U.S.
at 100-01, 125 S.Ct. at 1471) (“An officer’s inquiries into
matters unrelated to the justification for the traffic
stop, this Court has made plain, do not convert the encounter into something other than a lawful seizure, so
long as those inquiries do not measurably extend the
duration of the stop.”). However, it too, misses the
mark. We are concerned here with inquiries that did
extend the duration of the stop because they occurred
after Deputy Knittel had completed the citation, and
the initial reason for the stop had been resolved. The
Supreme Court directly and clearly addressed this
question in Rodriguez, 575 U.S. at 350-51, 135 S.Ct. at
1612, where it held, “A seizure justified only by a policeobserved traffic violation, therefore, ‘become[s] unlawful
if it is prolonged beyond the time reasonably required

App. 15
to complete th[e] mission’ of issuing a ticket for the violation.” (alterations in original) (quoting Caballes, 543
U.S. at 407, 125 S.Ct. at 837).
[¶21] The district court apparently based its ruling
on its finding that the extension of the stop was de minimis, when it held the “conversation between Deputy
Knittel and Mr. Mahaffy took approximately one and a
half minutes, and the canine free-air sniff required
only a fraction of that time.” But the United States Supreme Court soundly rejected the argument that a de
minimis extension of a stop is acceptable in Rodriguez,
575 U.S. at 350-53, 135 S.Ct. at 1612-13. Deputy Knittel
unlawfully extended the duration of the traffic stop after he had completed the citation by asking unrelated
questions about nervousness.
[¶22] For these reasons, we conclude Mr. Mahaffy did
not waive his argument that the stop was unlawfully
extended, and his Fourth Amendment rights were violated. We reverse and remand for further proceedings
consistent with this opinion.

BOOMGAARDEN, Justice, dissenting, in which
KAUTZ, Justice, joins.
[¶23] “We have cautioned that although a conditional
guilty plea provides a mechanism for appellate review,
it does not provide carte blanche permission to present
any and all arguments on appeal.” Brown v. State, 2019
WY 42, ¶ 12, 439 P.3d 726, 730 (Wyo. 2019) (citation
omitted). “Rather, an appellant’s argument is limited

App. 16
to those issues clearly brought to the district court’s
attention.” Id. ¶ 12, 439 P.3d at 730–31 (citation omitted). I respectfully dissent, as I believe the majority
opinion undercuts this longstanding rule. It further attributes a ruling to the district court which the court
never made when it denied Mr. Mahaffy’s motion to
suppress—that Mr. Mahaffy was not entitled to suppression of the evidence seized because the extension
of the stop was de minimis—and which the record
simply does not support. By my reading, the record
and existing law command but one conclusion—Mr.
Mahaffy waived the argument he brings forth on appeal by not clearly bringing the issue to the district
court’s attention.
[¶24] Applying the majority opinion’s analysis, so
long as a defendant asserts that law enforcement unlawfully, or unreasonably, extended the traffic stop, by,
for example, citing to Rodriguez v. United States, 575
U.S. 348, 350–51, 135 S.Ct. 1609, 1612, 191 L.Ed.2d 492
(2015) (“A seizure justified only by a police-observed
traffic violation . . . ‘become[s] unlawful if it is prolonged beyond the time reasonably required to complete th[e] mission’ of issuing a ticket for the violation.”
(citation omitted)), he need not clearly identify for the
district court the unlawful or unreasonable action(s) or
case(s) on which he relies. Instead, the “mere mention”
of law enforcement’s actions during the stop, in any
context, will suffice to preserve his right to argue on
appeal that his stop was unreasonably prolonged
based on different actions under a different legal analysis than he presented to the district court. For reasons

App. 17
I explain below, this is an unfortunate departure from
our precedent.
[¶25] The purpose of our longstanding rule as set
forth above in Brown is, as the majority opinion states,
“to advise the State and the district court of the factual
basis and the law upon which [the defendant] relies”
for his motion. Specifying the particular grounds for
suppression is a matter of notice to the district court
and the prosecution. See Brown, ¶ 12, 439 P.3d at 73031 (notice to the court); Bittleston v. State, 2019 WY 64,
¶ 37 n.9, 442 P.3d 1287, 1296 n.9 (Wyo. 2019) (“[I]t is
unfair to the State to rule on a suppression claim first
raised on appeal, at a point when the State has no
opportunity to make a record to defend against the
claim.” (citation omitted)); 6 Wayne R. LaFave, Search
and Seizure § 11.2(a) (6th ed.), Westlaw (database updated Sept. 2020) (“[I]t is commonly required that the
motion ‘must specify with particularity the grounds
upon which the motion is based.’ This burden of raising
an issue exists even if, once raised, the burden of proof
will be on ‘the prosecution to disprove the defendant’s
contentions,’ and whether defendant’s motion is sufficiently specific ‘does not depend on the allocation of the
burden of proof.’ ” (footnotes omitted)). After comparing
the argument Mr. Mahaffy presents to us with the argument he presented to the district court, I must disagree with the majority opinion’s conclusion that Mr.
Mahaffy’s motion serves this purpose.

App. 18
[¶26]

In his appellate brief, Mr. Mahaffy asserts:

Deputy Knittel prolonged the stop as he engaged in a colloquy which was devoted to inquiries having nothing to do with the issuance
of a citation for throwing a lit cigarette out of
the passenger window. Deputy Knittel began
a line of questioning pertaining to why Mr.
Mahaffy’s wife appeared nervous, and what
the two were in an argument over. After this
short conversation, the officer then returned
to issuing the citation, and reviewed the options
as to how and in what manner Mr. Mahaffy
might dispose of the citation. Although the
break in the issuance of the citation and the
line of questioning might not have been lengthy,
it is unarguable that it occurred, that it occurred during the crucial point in the investigation, and that it prolonged the issuance of
the citation long enough for Officer Luc[a]s to
perform the free air [sniff ].
[¶27] In contrast, in his motion to suppress and at
the hearing on his motion Mr. Mahaffy quite specifically, albeit erroneously, relied on Mills v. State, 2020
WY 14, 458 P.3d 1 (Wyo. 2020)2 to argue to the district
court that:
2

In Mills “[w]e decline[d] to hold that Deputy Borgialli’s purported desire to ‘explain’ the warning citation [to Mr. Mills] after
he completed it was related to the purpose of the traffic stop in
these circumstances.” ¶ 28, 458 P.3d at 11. We concluded that unless the deputy had reasonable suspicion of other criminal activity—an issue we addressed later in the decision—“the Fourth
Amendment obligated Deputy Borgialli to return Mr. Mills’ documents promptly and allow him to continue on his way.” Id.

App. 19
According to the recent Mills v. State decision,
the traffic stop should have concluded once
Deputy Knittel had completed his traffic citation for littering the cigarette butt.
....
The mission of Deputy Knittel’s traffic stop in
this case was the investigation for littering a
cigarette butt. His investigation into that violation was completed once Mahaffy admitted
to the littering, Deputy Knittel received clear
returns, and he issued the written citation.
The only reason the stop lasted any longer
was that Knittel was arranging to have Dep.
Stearns escort Mahaffy out of the car for the
purposes of a rather extensive explanation [ ]
on the citation. The subsequent drug investigation of four officers and a K-9 wasn’t lawful
once the citation was completed. Like in Mills,
in the absence of reasonable [suspicion], the
Fourth Amendment obliged Deputy Knittel to
return Mr. Mahaffy’s documents, including
the citation to him and the mother and allowed them to continue on their way. The
subsequent dog sniff and subsequent search
revealing contraband was an unlawful extension of the duration of the traffic stop and a
violation of [Mahaffy’s] rights.

Mills did not set a bright-line rule that a law enforcement
officer may never explain a citation to its recipient unless he has
reasonable suspicion of other criminal activity. See id. ¶¶ 21–28,
458 P.3d at 9–11. We expressly limited our holding to the facts
and circumstances presented. See id. ¶ 28, 458 P.3d at 11.

App. 20
[¶28] At the suppression hearing, defense counsel
opened by arguing the motion “addresses an important
issue as to whether an officer can depart from the mission of a traffic stop and engage in . . . a [free air] sniff
of a drug dog[.]” She then cited Rodriguez v. United
States and Mills v. State. During the hearing neither
counsel asked any witness to identify exactly when the
dog alerted. No one asked Deputy Knittel why he inquired about the driver’s hands shaking or the argument between the Mahaffys. Accordingly, no record
exists and the district court made no findings on those
matters.
[¶29] In closing, defense counsel argued the officer
improperly extended the traffic stop by explaining the
citation, which required reversal under her reading of
Mills. Counsel appeared to further claim that the
drug dog should not have been called because it was
the driver, Mrs. Mahaffy, who was nervous, not Mr.
Mahaffy, and that somehow the free air sniff prolonged
the stop. Counsel mentioned the driver’s nervousness
twice in closing, pointing out only that Mr. Mahaffy
was not the one with nervousness. Counsel never mentioned the nervousness questions and never identified
when the purpose of the stop ended or when the drug
dog alerted relative to those questions. Those issues
were never addressed in the suppression hearing. Accordingly, neither Mr. Mahaffy’s motion to suppress
nor his argument put the district court or the State
on notice that he also relied on Deputy Knittel’s nervousness questions as the reason the traffic stop was
unlawfully extended.

App. 21
[¶30] The district court’s decision letter underpins
that Mr. Mahaffy did not put the court on notice it
should rule on whether the nervousness questions
were improper and thus unreasonably prolonged the
stop. See Brown, ¶ 12, 439 P.3d at 730–31. Summarizing Mr. Mahaffy’s suppression argument, the court
noted he (1) argued the traffic stop’s purpose concluded
when Deputy Knittel finished writing the citation;
(2) argued the dog sniff and vehicle search were thus
“illegal due to the impermissible extension of the stop”;
and (3) relied on Mills to support his position. The
court therefore discussed Mills, but found nothing improper about Deputy Knittel explaining the citation to
Mr. Mahaffy under the circumstances. The decision
letter mentioned the deputy’s questions about Mrs.
Mahaffy’s nervousness, as well as Mr. Mahaffy’s response about the couple’s argument, only in passing—
nowhere did the district court conclude or even suggest
that the extension of the stop was de minimis, as the
majority opinion states.
[¶31] Mr. Mahaffy’s appellate argument changes the
inquiry from whether it was improper for Deputy
Knittel to engage in a citation explanation at all under
Mills to whether some of the specific questions Deputy
Knittel asked during the explanation were improper
because they did not relate to the citation. Mr. Mahaffy
has abandoned Mills on appeal and now relies on a
completely different case, Campbell v. State, 2004 WY
106, 97 P.3d 781 (Wyo. 2004). He never cited to or relied
on Campbell in the district court.

App. 22
[¶32] Moreover, unlike in Brown, which the majority
opinion deems analogous to this case, questions of fact
and law pertaining to Mr. Mahaffy’s appellate argument were not developed in the district court. For example, had the prosecutor understood he needed to
develop a record on why Deputy Knittel asked the
nervousness questions and precisely how the timing of
those questions related to the dog’s alert, and had the
district court made findings on that issue, we could determine whether the nervousness questions were “the
type of ‘negligibly burdensome’ inquiries directed at
ensuring officer safety” or “were posed as a pretext to
‘facilitate’ a detour into investigating other crimes.”
See, e.g., United States v. Cortez, 965 F.3d 827, 839–40
(10th Cir. 2020). This Court should not make that determination on an underdeveloped record.
[¶33] And even assuming the nervousness questions
were improper, the record is also underdeveloped on
precisely when the dog alerted relative to Deputy Knittel asking the nervousness questions. Deputy Knittel
testified the dog alerted—a fact Mr. Mahaffy has never
disputed—but the deputy did not identify precisely
when that occurred, and Officer Lucas did not testify
at the suppression hearing. The majority opinion suggests the dog alerted 13:14 minutes into the stop, well
after Deputy Knittel asked the first nervousness question, see supra ¶ 3. But the record and law present a
much closer question.
[¶34] Deputy Knittel’s body camera captured some of
what Officer Lucas and the dog were doing during the
citation explanation from 12:00 to 12:25 minutes into

App. 23
the stop. We can discern that the dog probably alerted
while Officer Lucas walked him along the passenger
side of the car because, on reaching the front, they
veered out and away from the car; Officer Lucas never
walked the dog along the driver side of the car. Later
in the video, while searching the car, Deputy Knittel
and Officer Lucas briefly discussed the fact that the dog
alerted almost immediately. However, Officer Lucas
walked the dog along the passenger side of the car so
close in time to when Deputy Knittel asked the first
nervousness question approximately 12:20 minutes
into the stop that it is not possible to determine with
certainty whether the dog alerted before Deputy Knittel
began questioning Mr. Mahaffy about nervousness.
[¶35] The timing of the dog alert leads to more unanswered questions. For example, does it matter whether
Deputy Knittel knew the dog alerted before he asked
the first nervousness question? If so, when did Deputy
Knittel first know the dog alerted? If he did not know
the dog alerted before he asked the first nervousness
question, is that dispositive? Or could Officer Lucas’
knowledge of the dog alert be imputed to Deputy Knittel
under the collective knowledge doctrine? See United
States v. Shareef, 100 F.3d 1491, 1503–04 (10th Cir.
1996) (discussing whether the collective knowledge of
officers applies absent evidence the officers communicated with each other); 2 Wayne R. LaFave, Search and
Seizure § 3.5(c) (6th ed.), Westlaw (database updated
Sept. 2020) (discussing different approaches to situations where “the arresting or searching officer attempts to justify his action on the ground that other

App. 24
officers were in fact in possession of the underlying
facts justifying his action” (footnotes omitted)). From
my review of the record, these questions remain unanswered because Mr. Mahaffy did not put the timing of
the dog alert at issue when he argued that the traffic
stop should have ended as soon as Deputy Knittel finished writing the traffic citation. Absent answers to
these questions, we cannot and should not conclude the
officers violated Mr. Mahaffy’s Fourth Amendment
rights.
[¶36] For all these reasons, I conclude Mr. Mahaffy
waived the suppression argument he brings forth on
appeal and I dissent from the majority opinion’s conclusion his Fourth Amendment rights were violated.

App. 25
IN THE DISTRICT COURT,
SIXTH JUDICIAL DISTRICT
STATE OF WYOMING, CAMPBELL COUNTY
STATE OF WYOMING,
Plaintiff,
vs.
WILLIAM MAHAFFEY,
Defendant.

)
)
)
) Criminal Action No. 9111
)
)
)

ORDER DENYING DEFENDANT’S
MOTION TO SUPPRESS EVIDENCE
(Filed Apr. 8, 2020)
This matter came before the court upon Defendant’s Motion to Suppress Evidence, filed February 14,
2020. The court, having reviewed the same and, in
accordance with that certain DECISION LETTER: DEFENDANT’S MOTION TO SUPPRESS EVIDENCE, dated April
7, 2020, which is incorporated herein by reference,
finds that said motion should be, and hereby is, denied.
IT IS SO ORDERED.
DATED: April 7, 2020
BY THE COURT:
/s/ John R. Perry
DISTRICT JUDGE

App. 26
Distribution:
Jonah Buckley, Esq.
District Court Mailbox
Gillette, Wyoming
Amber Beaverson, Esq.
District Court Mailbox
Gillette, Wyoming

App. 27
STATE OF WYOMING
SIXTH JUDICIAL DISTRICT
JOHN R. PERRY, JUDGE

APRIL 7, 2020

Amber Beaverson, Esq.
District Court Mailbox
Gillette, Wyoming
Jonah Buckley, Esq.
District Court Mailbox
Gillette, Wyoming
Re:

State v. Mahaffy – Criminal Action No. 9111
DECISION LETTER: DEFENDANT’S MOTION
TO SUPPRESS EVIDENCE
(Filed Apr. 8, 2020)

Dear Counsel:
This matter came before the Court on March 17,
2020 for hearing on Defendant’s Motion to Suppress
Evidence. Defendant appeared in person and by and
through his counsel, Ms. Amber Beaverson. The State
appeared by and through Mr. Jonah Buckley. Defendant asks that the court suppress evidence obtained
during a December 29, 2019 law enforcement search of
a vehicle following a traffic stop. The parties submitted
the law enforcement body camera recording of the
events of the event in question for the court’s review.
Facts
On the evening of December 29, 2019, Deputy Josh
Knittel of the Campbell County Sheriff ’s Department
observed the discarding of a lit cigarette from the passenger side window of a vehicle traveling in front of

App. 28
him. Deputy Knittel conducted a stop of the vehicle
and eventually issued a citation for throwing a burning
substance from a vehicle, a violation of W.S. § 6-3-107,
to the passenger of the vehicle, William Mahaffy.
During his initial contact with the vehicle occupants, Deputy Knittel observed that the driver, Raina
Mahaffy, appeared very nervous with shaking hands.
William Mahaffy, the passenger in the front seat, admitted to having thrown the cigarette out the window.
Two minors were in the rear seat of the vehicle, AM
and WM, the children of William and Raina Mahaffy.
Upon returning to his patrol vehicle, Deputy Knittel
requested that a canine unit respond to his location.
While Deputy Knittel requested driver’s license
and warrant checks on William and Raina Mahaffy
and prepared the citation, Gillette Police Department
Officer Lucas and Deputy Stearns arrived at the location of the stop. Deputy Stearns requested William exit
the vehicle to speak with Deputy Knittel regarding the
citation, and William complied, walking back to stand
with Deputy Knittel outside his patrol vehicle.
While Deputy Knittel explained the citation for
throwing a burning substance from a vehicle to Mr.
Mahaffy, Officer Lucas’s canine Bruno conducted a
free air sniff around the exterior of the Mahaffy vehicle. Bruno provided a positive “indication” for the
presence of narcotics in the Mahaffy vehicle. The officers searched the vehicle, finding a glass pipe with
suspected methamphetamine and two small clear
plastic baggies with suspected methamphetamine. The

App. 29
substances in both baggies tested presumptive positive
for methamphetamine. The Mahaffy children, AM
and WM, were taken into protective custody. William
Mahaffy was charged with two counts of drug endangered child (W.S. § 6-4-405(b)) and possession of a controlled substance (W.S. § 35-7-1031(c)(i)(C)).
Discussion
In Defendant’s Motion to Suppress Evidence, he
argues the purpose of the traffic stop was concluded
once Deputy Knittel had finished preparing the citation for throwing a burning substance from a vehicle.
Thus, Defendant asserts, the canine free-air sniff and
subsequent search of the vehicle were illegal due to the
impermissible extension of the stop, that being the
time required for Deputy Knittel’s explanation of the
citation to Mr. Mahaffy. Defendant cites the recent Wyoming Supreme Court case of Mills v. State, 2020 WY
14, 458 P.3d 1 (Wyo. 2020), in support of his position.
Mills was an ineffective assistance of counsel
claim involving facts similar, in some respects, to those
of the matter at bar:
While patrolling on July 10, 2017, Deputy
Kyle Borgialli received a communication from
DCI agents, who indicated that they had witnessed a possible drug transaction, described
the two vehicles involved, and requested that
he “find legal cause to stop and speak with
those vehicles.” Shortly thereafter, Deputy
Borgialli saw two vehicles matching their descriptions turn left onto a four-lane road. One
vehicle turned into the inside lane nearest the

App. 30
road’s center line, while the other took a wider
turn into the outside lane of the road. Deputy
Borgialli initiated a traffic stop of the vehicle
that had taken the wider turn.
Deputy Borgialli approached the vehicle’s
driver, Mr. Mills, told him the reason for the
stop, and requested Mr. Mills’ license, registration, and proof of insurance. While Mr.
Mills gathered his documents Deputy Borgialli
repeatedly asked him whether he had “weapons,” “anything illegal,” or “illegal narcotics”
on his person or in the vehicle. After repeatedly indicating that he did not have anything
illegal in the vehicle, Mr. Mills became frustrated and answered “No” in an elevated tone
of voice.
Deputy Borgialli took Mr. Mills’ documents
back to his patrol car, called in Mr. Mills’ license number to his dispatcher, and filled out
a warning citation. As he was returning to Mr.
Mills’ vehicle, another officer at the scene told
him that he had observed Mr. Mills put a
brown paper sack under his seat. When he approached Mr. Mills, Deputy Borgialli informed
him that one of the documents he had provided was a price quote, not “actual proof of
insurance,” and he again requested proof of insurance. Mr. Mills immediately provided his
proof of insurance, which Deputy Borgialli
quickly examined and returned to Mr. Mills.
Deputy Borgialli held onto Mr. Mills’ other
documents and the completed warning citation, and asked Mr. Mills to step out of the vehicle so that he could “explain” the citation to

App. 31
him. Mr. Mills refused to exit the vehicle, saying Deputy Borgialli could “explain it right
here” and that he needed to get home.
Officer Steven Dillard arrived on scene with a
drug-sniffing dog while Mr. Mills was refusing
to exit his vehicle. Deputy Borgialli summoned Officer Dillard to Mr. Mills’ vehicle. Officer Dillard came over, leaving his canine on
the sidewalk near a patrol car, and Deputy
Borgialli told him Mr. Mills would not “get out
of the vehicle for the canine.” The two officers
attempted to persuade Mr. Mills to exit the vehicle, but Mr. Mills continued to refuse. Eventually, several officers forcibly removed Mr.
Mills from his vehicle and placed him under
arrest for interference with a peace officer due
to refusal to obey the request to exit the vehicle. Wyo. Stat. Ann. § 6-5-204(a) (LexisNexis
2019). Officers conducted a search incident to
arrest and found two packages of methamphetamine and one package of cocaine in one
of his pockets. After Mr. Mills was removed
from the vehicle, Officer Dillard ran his canine around it, and the dog alerted. A search
of the vehicle uncovered four glass methamphetamine pipes, jeweler’s baggies, two digital
scales, and $3,600 cash.
Mills v. State, ¶ 3-6, 458 P.3d at 5-6 (footnotes omitted).
The Mills Court concluded Mr. Mills’ trial counsel
was ineffective for failure to challenge the duration of
the traffic stop, finding, “[t]he record supports the
conclusion that law enforcement prolonged Mr. Mills’
traffic stop beyond the time reasonably needed to

App. 32
effectuate its purpose.” Id. at ¶ 26. The matter was remanded to allow the trial court to determine whether
the State could have shown the duration of the stop
was reasonable, that is, whether the State would have
overcome a motion to suppress on that basis. Id. at
¶ 33.
The court has carefully reviewed Deputy Knittel’s
body cam recording of the events in question.1 Generally, the court finds the law enforcement officers involved in this arrest acted efficiently and within the
time reasonably needed to effectuate their purpose.
Within ten minutes of the time he initially made contact with the driver, Deputy Knittel completed preparing
the citation and requesting and receiving information
from dispatch regarding any outstanding issues or
warrants for William or Raina Mahaffy.
During Deputy Knitters explanation to Defendant
of the citation, the two discussed the fine associated,
$535, and the date that fine would be due, January 28,
2020. Defendant inquired about how he could pay the
fine, asking if he could mail it in or pay it online. Deputy Knittel also explained that if Defendant had difficulty making the payment he could come to Circuit
1

This was the only recording submitted for the court’s consideration. Defendant’s Motion to Suppress Evidence suggests
counsel for Defendant may have reviewed body cam recordings
of other law enforcement present at the scene of the arrest: “The
officers have a discussion(s) on how to extend the traffic stop to
effectuate the dog sniff.” Def. Mot. to Suppress Evidence, p. 2. The
court repeatedly re-played Deputy Knittel’s body cam recording,
listening to the dialogue carefully, and found no such discussion.

App. 33
Court in Gillette and set up a payment plan or contest
the citation. He also asked Defendant why Defendant
and his wife were so nervous. Mr. Mahaffy stated he
and his wife had had an argument about driving
shortly before the traffic stop. This conversation between Deputy Knittel and Mr. Mahaffy took approximately one and a half minutes, and the canine free-air
sniff required only a fraction of that time.
So long as use of a dog does not extend a traffic
stop’s length, a sniff to the exterior of a vehicle, “even in the complete absence of reasonable suspicion,” does not violate the Fourth
Amendment because it does not amount to a
search. Wallace [v. State], 2009 WY 152, ¶ 15,
221 P.3d [967] at 970-71 [(Wyo. 2009)]; Illinois
v. Caballes, 543 U.S. 405, 409, 125 S.Ct. 834,
838, 160 L.Ed.2d 842 (2005).
Gibson v. State, 2019 WY 40, ¶ 10, 438 P.3d 1256, 1259
(Wyo. 2019). The court finds the canine sniff of the vehicle in this case did not extend the length of the stop.
The duration of the explanation regarding the citation,
and particularly the discussion about paying the relatively substantial $535 fine, was reasonable.
At the hearing on the Motion to Suppress, Defendant’s attorney asked Deputy Knittel if his request
to have Mr. Mahaffy exit the vehicle to discuss the citation was “a normal procedure.” Deputy Knittel testified he had done that “numerous times, I would say
probably hundreds of times.” Further, he explained he
had requested Mr. Mahaffy exit the vehicle in this instance because the driver had appeared very nervous,

App. 34
“more nervous than a typical traffic stop,” which led
him to believe something was “going on.”
[T]he United States Supreme Court has unequivocally ruled that an officer may ask the
driver and passengers to exit their car during the course of a routine traffic stop without
violating the Fourth Amendment. Pennsylvania v. Mimms, 434 U.S. 106, 98 S.Ct. 330, 54
L.Ed.2d 331 (1977) (per curiam) (driver);
Maryland v. Wilson, 519 U.S. 408, 117 S.Ct.
882, 137 L.Ed.2d 41 (1997) (passengers).
Flood v. State, 2007 WY 167, ¶ 19, 169 P.3d 538, 544–
45 (Wyo. 2007). The Flood Court held that officers are
justified, “for the sake of safety,” in asking persons to
exit their vehicles during routine traffic stops, particularly persons who are being cited for violations of Wyoming law. Id. at ¶ 18-19. Here, the court finds nothing
improper related to Deputy Knittel’s asking that Defendant come back to his patrol vehicle so that he could
explain the citation being issued.
Conclusion
Defendant’s Motion to Suppress Evidence is denied.
Very truly yours,
/s/ John R. Perry
John R. Perry
District Judge

App. 35
IN THE SUPREME COURT, STATE OF WYOMING
April Term, A.D. 2021

WILLIAM THOMAS
MAHAFFY V,
Appellant
(Defendant),
v.
THE STATE
OF WYOMING,

S-20-0191
(2021 WY 63)

Appellee
(Plaintiff ).
ORDER DENYING PETITION

FOR

REHEARING

(Filed Jun. 8, 2021)
This matter came before the Court upon the
State of Wyoming’s “Petition for Rehearing,” e-filed
herein May 21, 2021. Having examined the files and
record of the Court and having carefully considered the
issues raised in the petition for rehearing, the Court
finds that the petition for rehearing should be denied.
It is, therefore,
ORDERED the State of Wyoming’s Petition for
Rehearing, e-filed May 21, 2021, be, and the same
hereby is, denied.

App. 36
DATED this 8th day of June, 2021.
BY THE COURT:* **
/s/
MICHAEL K. DAVIS
Chief Justice

* Before DAVIS, C.J., and FOX, KAUTZ, BOOMGAARDEN,
and GRAY, JJ.
** Justice Kautz and Justice Boomgaarden would have
granted the petition.

